HHS/OIG - Audit,"Review of Medicare Transtitional Pass-Through Payments Made Under the Hospital Outpatient Prospective Payment System for Drugs, Biologicals, and Medical Devices at Cape Cod Hospital for the Period August 1, 2000 Through June 30, 2001,"(A-
Department of Health and Human Services
"Review of Medicare Transitional Pass-Through Payments Made Under The Hospital Outpatient Prospective Payment System
for Drugs, Biologicals, and Medical Devices at Cape Cod Hospital for the Period August 1, 2000 through June 30, 2001," (A-01-01-00550)
January 31, 2002
Complete
Text of Report is available in PDF format (2.17 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether transitional pass-through payments for drugs, biologicals, and medical
devices were reimbursed in accordance with Medicare laws and regulations.  Generally, we found that the hospital was
reimbursed for pass-through drugs, biologicals, and medical devices in accordance with Medicare laws and regulations.  However,
we did identify isolated billing issues dealing with submission of charges, units billed and incorrect coding.  We
recommended that Cape Cod Hospital strengthen its existing controls to ensure that pass-through payments are billed correctly.  The
hospital agreed with our findings and identified steps they have taken, and plan to take, to improve controls over pass-through
billing.